              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
The National Nuclear Security
Administration's Weapons Dismantlement
and Disposition Program




OAS-L-13-06                        January 2013
                                 Department of Energy
                                   Washington, DC 20585

                                        January 29, 2013


MEMORANDUM FOR THE ACTING CHIEF AND ASSOCIATE ADMINISTRATOR,
                 OFFICE OF DEFENSE NUCLEAR SECURITY
               MANAGER, NNSA PRODUCTION OFFICE
               FEDERAL PROGRAM MANAGER, WEAPONS
                 DISMANTLEMENT AND DISPOSITION PROGRAM



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The National Nuclear Security
                         Administration's Weapons Dismantlement and Disposition Program"

BACKGROUND

The Department of Energy's (Department) National Nuclear Security Administration (NNSA) is
responsible for the safe and secure dismantlement of retired nuclear weapons. Weapons and
components no longer needed for the stockpile are dismantled and disposed of at various NNSA
sites. NNSA's Pantex Plant (Pantex), managed and operated by Babcock & Wilcox Technical
Services Pantex, LLC, is responsible for dismantling retired weapons by separating the high
explosive from the special nuclear material, which is in the form of a pit. Pantex also provides
temporary storage (staging) onsite for pits from dismantlement operations, and either processes
other components onsite or ships them to other NNSA sites for further processing. For example,
Pantex ships the canned subassembly, a nuclear component, to the Y-12 National Security
Complex (Y-12) for further disassembly.

Pantex also stages nuclear weapons and nuclear weapon components to support other Directed
Stockpile Work programs such as surveillance or repairing/replacing components of nuclear
weapons. In addition, Pantex stages nuclear components identified as strategic reserve and
national security assets as well as surplus nuclear components for which the Department has not
identified a disposal path. Finally, Pantex characterizes and sanitizes surplus components with
determined disposal paths and disposes them onsite or transfers them offsite for disposal.

In a 2008 Report to Congress, NNSA set a goal to dismantle all nuclear weapons retired prior to
Fiscal Year (FY) 2009 by the end of FY 2022. In April 2011, NNSA reiterated the goal. To
help guide this mission activity, NNSA prepares a Production and Planning Directive that
identifies the current and projected dismantlement rates for Pantex and Y-12. In addition, Pantex
and Y-12 established internal goals for disposing of components from dismantlement operations.
We initiated this audit to determine whether NNSA is effectively managing its weapons
dismantlement and disposition program.

CONCLUSIONS AND OBERVATIONS

Our review disclosed that NNSA met or exceeded its nuclear weapons dismantlement and
disposition program goals for FYs 2010 and 2011. However, we noted potential issues related to
the infrastructure for staging nuclear weapons, nuclear weapon components, and other weapon
components at Pantex that could impact future dismantlement efforts and other Directed
Stockpile Work programs.

                                          Program Accomplishments

Pantex exceeded its FY 2010 and FY 2011 goals for nuclear weapon dismantlements by 26
percent and 10 percent, respectively. In addition, Pantex met its FY 2010 performance targets
for component disposition by reducing the volume of components, identifying and sorting an
additional 20 percent of scrap components, and increasing storage capacity through component
disposition. Pantex also met its FY 2011 performance targets for component disposition. Y-12
surpassed its scheduled canned subassembly dismantlement goals in FY 2010 by more than 11
percent and met scheduled dismantlement quantities in FY 2011. Y-12 also met its goal of
dispositioning dismantled components that were no longer needed by shipping them to a disposal
site.

                                Infrastructure for Staging Nuclear Materials

According to Pantex officials, as the infrastructure for staging nuclear materials at Pantex
continues to age without needed improvements, Pantex may not be able to provide the level of
protection required for safe and secure staging operations of nuclear materials. Pantex has two
separate and distinct Material Access Areas for staging Category I and II Special Nuclear
Materials 1; Zone 4W and Zone 12. Staging of weapons and other nuclear explosive assemblies
only occurs in Zone 4W, which is protected by a dedicated security system. According to an
NNSA Production Office official, the Zone 4W security system was installed in the 1990s with
an expected useful life of 20 years and has been due for refurbishment. Until the Zone 4W
security system is upgraded, there is a potential security concern that elements of the system may
no longer function as intended. According to NNSA and Pantex officials, in the event of a
security system failure, compensatory measures will be needed to provide adequate protection.

While we recognize that properly approved compensatory measures are an accepted security
measure, we have noted problems in the past at another nuclear weapons site with over reliance
on compensatory measures to address equipment failures. In particular, our 2012 report, Inquiry
into the Security Breach at the National Nuclear Security Administration's Y-12 National
Security Complex (DOE/IG-0868, August 2012), identified a Y-12 security incident that

1
 Category I and II Special Nuclear Materials are those materials that would be most attractive to an adversary intent
on theft or diversion and generally include weapon components such as pits, as well as other pure products and high
grade materials containing significant quantities of plutonium and uranium.

                                                          2
represented multiple system failures on several levels, including failures to maintain critical
security equipment, and over reliance on compensatory measures. According to NNSA and
Pantex officials, NNSA has communicated the need for Pantex to develop a proposal to upgrade
or replace the Zone 4W security system.

Additionally, according to Pantex documents, magazines 2 containing pits and nuclear explosives
are deteriorating. The Zone 4W Material Access Area consists of 60 staging and storage
magazines, which range from 45 to 65 years old. Of the 60 magazines, some are fully occupied
with staged pits and others are currently dedicated to nuclear explosives staging. A Pantex
official stated that B&W Pantex conducts Condition Assessment Survey (CAS) inspections of
the magazines every five years. The inspections include the structural, mechanical, and electrical
condition of the magazines, and the results of the inspections are reported in the Department's
Condition Assessment Information System (CAIS). The CAS inspections performed between
2007 and 2012, and the June 2012 CAIS report disclosed that the magazines needed varying
degrees of repair such as improvements required due to the erosion of the earth overburden,
roofing maintenance, repairs on the foundation, and repairs associated with the heating,
ventilation and air conditioning systems.

According to the CAIS, as of June 2012, the total deferred maintenance for the 60 magazines in
the Zone 4W Material Access Area was $3.4 million. A Pantex official told us that erosion will
be a perpetual issue for the magazines until corrective actions are taken. Another Pantex official
told us that most of the deferred maintenance was due to the aging and degradation of the
magazines, and did not result in safety or security concerns. The same official also stated that
safety and security concerns are fixed immediately and that there was no backlog of safety and
security related preventive maintenance. However, the total deferred maintenance will continue
to increase and the magazines will continue to deteriorate until additional funding is provided or
the deferred maintenance is elevated to a higher priority.

NNSA recognizes the potential security concern posed by the aging security system. We noted
during our review that NNSA chartered an Integrated Project Team (Team) to study options for
Material Staging and Storage at Pantex. In September 2011, the Team issued a pre-decisional
Pantex Material Staging and Storage Study that identified several options for staging and storing
nuclear weapons and nuclear weapons components at Pantex. These options also identified how
the aging security system could be addressed. The Team recommended that Pantex prepare a
Mission Need (Critical Decision-0) package in accordance with the requirements set forth in
Department Order 413.3B, Program and Project Management for the Acquisition of Capital
Assets. Per the Order, Pantex had to identify a mission-related need that could not be met
through other than material means. In August 2012, Pantex submitted a Mission Need Statement
and Program Requirements Document for a Material Staging Facility to NNSA Headquarters,
seeking approval for mission need. As of November 2012, NNSA Headquarters had not yet
approved the Critical Decision-0 package.




2
    A magazine is a warehouse used to stage nuclear weapons and nuclear weapon components, such as pits.

                                                         3
                             Warehouses for Weapon Components

We also noted that warehouses that Pantex uses to stage weapon components are nearing
capacity levels. Specifically, Pantex stages a significant quantity of other weapon components.
According to a Pantex report, the warehouses used for such storage are about 86 percent full. As
of February 2012, Pantex had about 3.7 million weapon components. Of the total components,
about 3.5 million are active components and the remaining are legacy components. In addition,
Pantex generates approximately 50,000 components each year as part of its dismantlement
activities. In a 2009 report, Storage Capacity at the Pantex Plant (OAS-L-09-03, January 2009),
we reported that Pantex could not demonstrate and we could not determine if Pantex had
sufficient storage capacity to meet future mission requirements. According to a Pantex official,
Pantex does not anticipate problems with maintaining warehouse space for components from
future dismantlement operations based on an annual average disposal of 160,000 components.
However, the Pantex official could not provide documentation showing the estimated volume of
space needed to store weapon components from future dismantlements and volume of space
created through the disposition of components.

                                      Capacity Challenges

Pantex faces challenges in managing its limited warehouse capacity. In an effort to not add
components to the legacy workload, Pantex prioritizes the characterization, sanitization and
disposition of surplus components generated from the active dismantlement programs over the
legacy components. Further, according to a Pantex official, Pantex realizes that there are
components that are designated as active and ready for use that may not be needed by the current
stockpile. The official also stated that Pantex has been making progress in the last 3 years in
disposing of scrap components. There is now more emphasis being placed on looking at
components designated as other than scrap to see if other NNSA sites have requirements for
keeping them at Pantex. For example, the official stated that Pantex had identified components
that are slow moving (no transactions in 5 years), and by February 2013 Pantex plans to develop
a process for looking at components with no future usage and a process for acquiring approval
for disposition of components. However, until an evaluation is performed to determine if a
component is still needed to support the stockpile, Pantex will continue to maintain the
component in the inventory. Additionally, there are no performance metrics to ensure that
Pantex is only storing components that are needed to support the stockpile.

SUGGESTED ACTIONS

The NNSA Production Office is aware of the current condition of the Zone 4W infrastructure
and the magnitude of the weapon components being stored at Pantex, and actions are being taken
to address these two areas. Thus, we are not making any formal recommendations. However,
because no final decision has been made whether to upgrade the Zone 4W infrastructure or to
construct a replacement facility, we suggest that the Office of Defense Nuclear Security in
coordination with the Manager, NNSA Production Office, ensure that Pantex continues to
provide the level of protection required for safe and secure staging operations.




                                               4
In addition, to ensure sufficient storage capacity for components, we suggest that the Federal
Program Manager, Weapons Dismantlement and Disposition Program, in coordination with the
Manager, NNSA Production Office, consider actions to:

    •   Expedite the disposition of scrap and legacy components and work with Pantex on
        component storage solutions associated with further stockpile reductions; and,

    •   Establish performance metrics for the identification and disposition of active and ready-
        for-use components no longer needed to support the stockpile.

Because we are not making recommendations, a formal response is not required. We appreciated
the cooperation of Department and Pantex officials during the audit.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff




                                                5
                                                                                    Attachment

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The audit objective was to determine whether the National Nuclear Security Administration
(NNSA) is effectively managing its weapons dismantlement and disposition program.

SCOPE

The audit was performed between November 2011 and November 2012. We conducted the audit
at the NNSA Albuquerque Complex in Albuquerque, New Mexico; the Pantex Plant (Pantex) in
Amarillo, Texas; and the Y-12 National Security Complex (Y-12) in Oak Ridge, Tennessee.

METHODOLOGY

To accomplish the objective of this audit, we:

    •   Toured Pantex and Y-12 facilities used for weapon dismantlement and disposition of
        components;

    •   Interviewed Federal and contractor personnel at the NNSA Albuquerque Complex,
        Pantex, and Y-12;

    •   Reviewed the Nuclear Weapons Stockpile Plan, NNSA's Production and Planning
        Directives, and other planning documents pertinent to the subject audit; and

    •   Reviewed the 2010 Nuclear Posture Review report, New Strategic Arms Reduction
        Treaty, Department of Energy (Department) guidance, and policies and procedures.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objectives. The audit included tests of controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objectives. In
particular, we assessed the implementation of the GPRA Modernization Act of 2010 and found
that the Department had established performance measures related to weapon dismantlement and
disposition of weapon components. However, there are no performance metrics to ensure that
Pantex is only storing components that are needed to support the stockpile. Because our review
was limited, it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our audit. We did not rely on computer-processed data to satisfy our
audit objective.



                                                 6
                                            Attachment (continued)


Management waived an exit conference.




                                        7
                                                                    IG Report No. OAS-L-13-06


                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
